APPENDIX

TABLE OF APPENDICES
Appendix A
Judgment, United States Court of Appeals for
the First Circuit, Doughty v. SEA, 981 F.3d
128 (1st Cir. 2020) ................................ App-1
Appendix B
Opinion, United States Court of Appeals for
the First Circuit, Doughty v. SEA, 981 F.3d
128 (1st Cir. 2020) ................................ App-2
Appendix C
Judgment, United States District Court for
the District of New Hampshire, Doughty v.
SEA, 19-cv-53-PB (D. N.H. May 30, 2019)
............................................................... App-21
Appendix D
Transcript, United States District Court for
the District of New Hampshire, Doughty v.
SEA, 19-cv-53-PB (D. N.H. May 30, 2019)
............................................................... App-22
Appendix E
Complaint, United States District Court for
the District of New Hampshire, Doughty v.
SEA, 19-cv-53-PB (D. N.H. January 14, 2019)
............................................................... App-48

App-1

Appendix A
UNITED STATES COURT OF APPEALS
FOR THE FIRST CIRCUIT
–––––––––––––––––––––––
No. 19-1636
–––––––––––––––––––––––
PATRICK DOUGHTY; RANDY SEVERANCE,
Plaintiffs, Appellants,
v.
STATE EMPLOYEES’ ASSOCIATION OF NEW
HAMPSHIRE,
SEIU LOCAL 1984, CTW, CLC,
Defendant, Appellee.
–––––––––––––––––––––––
JUDGMENT
Entered: November 30, 2020
This cause came on to be heard on appeal from the
United States District Court for the District of New
Hampshire and was argued by counsel.
Upon consideration whereof, it is now here
ordered, adjudged and decreed as follows: The
judgment of the District Court is affirmed.
By the Court:
Maria R. Hamilton, Clerk
cc: Bryan K. Gould, Frank D. Garrison IV, Milton L.
Chappell, Cooley Ann Arroyo, Leon Dayan, Ramya
Ravindran, John S. Krupski

App-2

Appendix B
UNITED STATES COURT OF APPEALS
FOR THE FIRST CIRCUIT
–––––––––––––––––––––––
No. 19-1636
–––––––––––––––––––––––
PATRICK DOUGHTY; RANDY SEVERANCE,
Plaintiffs, Appellants,
v.
STATE EMPLOYEES’ ASSOCIATION OF NEW
HAMPSHIRE, SEIU LOCAL 1984, CTW, CLC,
Defendant, Appellee.
–––––––––––––––––––––––
APPEAL FROM THE UNITED STATES DISTRICT
COURT FOR THE DISTRICT OF NEW
HAMPSHIRE
Hon. Paul J. Barbadoro, U.S. District Judge
–––––––––––––––––––––––
Before
Howard, Chief Judge,
Thompson and Barron, Circuit Judges.
–––––––––––––––––––––––
Frank D. Garrison, with whom Milton L. Chappell,
National Right to Work Legal Defense Foundation,
Inc., Bryan K. Gould, Cooley Ann Arroyo, and
Cleveland, Waters & Bass, P.A., were on brief, for
appellants.
Leon Dayan, with whom Ramya Ravindran was on
brief, for appellee.
–––––––––––––––––––––––
November 30, 2020
–––––––––––––––––––––––

App-3
BARRON, Circuit Judge. This appeal concerns
a suit by two New Hampshire state employees,
Patrick Doughty and Randy Severance, against the
State Employees' Association of New Hampshire (“the
Union”) pursuant to 42 U.S.C. § 1983. They seek
retrospective relief for themselves and other state
employees who were not members of the Union but
were forced to pay so-called “agency fees” to it prior to
the United States Supreme Court's decision in Janus
v. American Federation of State, County & Municipal
Employees, Council 31, 138 S. Ct. 2448 (2018). There,
the Court overruled its decades-old decision in Abood
v. Detroit Board of Education, 431 U.S. 209 (1977), and
held that such “agency fee” arrangements violate the
First Amendment of the United States Constitution by
compelling the speech and association of non-union
governmental employees. The District Court granted
the Union’s motion to dismiss Doughty and Severance’s
complaint, and we affirm, aligning ourselves with
every circuit to have addressed whether such a
backward-looking, Janus-based claim is cognizable
under § 1983.1
I.
A.
New Hampshire state law imposes on unions
that serve as the exclusive representative of a
bargaining unit for state or local government
See generally Wholean v. CSEA SEIU Loc. 2001, 955 F.3d 332
(2d Cir. 2020); Diamond v. Pa. State Educ. Ass’n, 972 F.3d 262
(3d Cir. 2020); Ogle v. Ohio Civ. Serv. Emps. Ass’n, 951 F.3d
794 (6th Cir. 2020); Lee v. Ohio Educ. Ass’n, 951 F.3d 386 (6th
Cir. 2020); Janus v. Am. Fed’n of State, Cnty. & Mun. Emps.,
Council 31, 942 F.3d 352 (7th Cir. 2019); Danielson v. Inslee,
945 F.3d 1096 (9th Cir. 2019).
1

App-4
employees a duty of fair representation to the unit’s
non-union employees during the collective bargaining
process. See Nashua Tchrs. Union v. Nashua Sch.
Dist., 707 A.2d 448, 451 (N.H. 1998) (citing N.H.
Rev. Stat. Ann. § 273-A:3). Prior to Janus’s
overruling of Abood, the New Hampshire Supreme
Court held that the State’s “overall legislative scheme
to promote labor peace” impliedly permitted the
negotiation of collective bargaining agreements
between unions and governmental employers that
called for the payment of agency fees. See id. at 450.
In addition, the New Hampshire Supreme Court held
that, under Abood, the First Amendment was not
violated if a state or local governmental employer
made the payment of these fees in connection with such
agreements a condition of employment for their
employees. Id.
The New Hampshire Supreme Court explained
that collective bargaining agreements are contracts
forged between the employer and the union that serves
as the exclusive bargaining representative for the
relevant bargaining unit. Id. at 451. It further
explained that agency fees compensate for the fact
that, although such a union secures benefits through
the collective bargaining process for the bargaining
unit’s union and non-union employees alike, only the
union employees pay dues to the union. Id. Thus, until
Janus, New Hampshire permitted “agency fees” to
“defray the costs associated with [the union’s]
exclusive representation and collective bargaining,”
and such fees were regularly a subject of collective
bargaining agreements between unions and public
employers in the state. Id. at 449.

App-5
B.
On January 14, 2019, following Janus, Doughty
and Severance filed suit in the United States District
Court for the District of New Hampshire against the
Union under § 1983. Their complaint alleged that the
Union was the exclusive representative for their
respective bargaining units and that they were not
themselves members of the Union. The complaint
further alleged that, at the time relevant to this suit,
they were “forced” to pay agency fees to the Union” as
a condition of employment” in connection with the
Union’s collective bargaining agreements with their
respective state employers. Finally, their complaint
claimed that “the State” deducted the agency fees
from their paychecks and remitted them to the Union,
although the record offers no further details about the
mechanics of the payment process.
By the time that Doughty and Severance filed
their suit, the Union had ceased collecting agency fees,
as deductions from the employees’ paychecks to pay
those fees ended in Janus’s wake. Their complaint
nevertheless requested, based on Janus’s retroactive
application, that the District Court certify a class of
“all individuals employed by the State, and other
public employers, who, as a condition of employment,
were forced to pay union fees to [the Union], which
distributed some of the fees to its affiliates, any time
during the limitations period.” Doughty and
Severance further claimed that the members of this
class were entitled, pursuant to § 1983, to
“compensatory damages, refunds, or restitution in the
amount of compulsory union fees paid to the Union
from their wages without their written consent, and

App-6
other amounts as principles of justice and equity
require.”
C.
On March 18, 2019, the Union moved to dismiss
the plaintiffs’ complaint for failure to state a claim on
which relief could be granted under Federal Rule of
Civil Procedure 12(b)(6). The District Court held a
hearing on that motion on May 30, 2019 and granted
it that same day.
The District Court proceeded on the
understanding -- which the Union did not contest -that, due to Janus’s retroactive application, the state
employers’ requirement that the agency fees be paid as
a condition of Doughty’s and Severance’s employment
violated the First Amendment. The District Court also
assumed -- and, again, without dispute -- that the
Union, although a private entity, was a proper
defendant under § 1983 for this Janus-based suit,
despite the fact that the requirement to pay the agency
fees had been imposed on them by their employer as a
condition of their employment and not by the Union
itself.2 Finally, the District Court implicitly
In Lugar v. Edmondson Oil Co., 457 U.S. 922 (1982), the Court
held that a private party who attached the assets of a debtor under
a state attachment statute could be a proper defendant under §
1983 for a claim brought by a property owner based on a
violation of the property owner's right to procedural due process
on the ground that the defendant was acting under color of law in
bringing about the attachment pursuant to that statute's
summary attachment process. Id. at 924, 933-34; see also Wyatt
v. Cole, 504 U.S. 158, 159-60 (1992) (same). Here, of course, the
Union merely received the agency fees pursuant to a freely
negotiated contractual provision with the plaintiffs' employer and
those fees were made available to it, in turn, based on the
plaintiffs' contract with their employer. Nevertheless, as we
2

App-7
recognized that the doctrine of qualified immunity,
which protects governmental officials from damages
liability when sued in their individual capacities under
§ 1983 in the absence of their having violated “clearly
established” law, see District of Columbia v. Wesby,
138 S. Ct. 577, 589 (2018), does not protect private
defendants, see Wyatt v. Cole, 504 U.S. 158, 168-69
(1992), and so provided no such immunity to the Union
here.
Nevertheless, the District Court expressed
skepticism that § 1983 permitted Doughty and
Severance’s claim against the Union to go forward,
given their claim’s exclusive focus on agency- fee
payments made prior to Janus. In that connection, the
District Court asked the plaintiffs’ counsel at the
hearing on the motion to dismiss to “step back for a
second” and explain “how in any version of the world”
it would be “right to require [the Union] to pay
damages for acting consistent with the requirements
of state law and . . . [S]upreme [C]ourt precedent.” The
District Court emphasized that the Union’s “behavior
was entirely constitutional at the time they engaged in
it,” and that it is an unusual situation where the
Supreme Court “decides to flatly overturn its prior
precedent.” Because, as a general matter, “[o]ne of the
reasons that judges express their views in written
opinions is so that people can rely on” them, the
District Court explained, it would be “arrogant in the
extreme” to allow individuals who had so relied to be
“subjected to suits for damages” in the rare cases
have noted, there is no dispute on appeal as to whether, on
these facts, the Union is a proper § 1983 defendant for the
claimed First Amendment violation. Thus, like the District
Court, we assume that the Union is, despite the possible reasons
to question thatassumption.

App-8
where “judges flip 180 degrees on the law.” The
District Court added that it was “incomprehensible”
that “damage[s] actions [could] be maintained under”
the “unique circumstances” of this case.
The District Court then granted the Union’s
motion to dismiss Doughty and Severance’s complaint
based on two independent grounds. First, the District
Court ruled that “a good faith defense must be
available to protect defendants under these kinds of
circumstances” (emphasis added), and that Doughty
and Severance could not overcome that defense.
Second, the District Court held that Doughty and
Severance’s § 1983 claim was analogous to the
common-law tort of abuse of process, for which a “good
faith defense has traditionally been recognized.”3 For
this reason, too, the District Court held, Doughty and
Severance would have to overcome a “good faith
defense” to succeed in obtaining their requested relief,
which they could not do, given that the Union
collected the fees at issue before Janus overruled
Abood.
The District Court emphasized that it did not
find the plaintiffs’ claim for retrospective relief -whether for damages or restitution -- to be “frivolous,”
but it closed by stating that it did not “see how it
[could] possibly proceed.” Instead, the District Court
suggested that the plaintiffs appeal the case because
Although the District Court referred to the plaintiffs’ § 1983
claim as being subject to a “good faith defense,” it is clear that it
was merely holding that an element of their § 1983 claim was
proof of “malice,” such that their claim must be dismissed if
they failed to show that the Union had not acted in “good faith”
in collecting the agency fees at issue. See Wyatt, 504 U.S. at
172 (Kennedy, J., concurring).
3

App-9
it “would need guidance from the First Circuit
explaining. . . why the claim is potentially viable” to
recognize it.
D.
Following the District Court’s ruling, Doughty
and Severance timely filed this appeal on June 21,
2019, in which they challenge the District Court’s
grant of the Union’s 12(b)(6) motion. We have
jurisdiction under 28 U.S.C. § 1291. We review the
District Court’s dismissal of a case under Federal Rule
of Civil Procedure 12(b)(6) de novo. See Reisman v.
Associated Faculties of Univ. of Me., 939 F.3d 409, 411
(1st Cir. 2019).
II.
As to the claim for damages, Doughty and
Severance ask us to focus on § 1983’s text, which
expressly provides that “[e]very person” responsible
for depriving another of their constitutional rights
“shall be liable to the party injured in an action at law,”
42 U.S.C. § 1983. They then proceed to argue that,
because Janus applies retroactively and the Union is
a proper defendant for the First Amendment violation
resulting from its collection of agency fees, there is no
basis for denying them a damages remedy against the
Union for the federal constitutional violation that
they suffered. For, Doughty and Severance point out,
on its face, § 1983 “is absolute and unqualified; no
mention is made of any privileges, immunities, or
defenses that may be asserted,” Owen v. City of
Independence, 445 U.S. 622, 635 (1980).
The District Court rightly emphasized, however,
that the plaintiffs are seeking damages for a private
party’s role in imposing a payment requirement on

App-10
them during a period of time in which the nation’s
highest court had
expressly
held that the
requirement did not give rise to the First Amendment
violation on which their damages claim under § 1983
now depends. We thus must attend to the District
Court’s concern that the recognition of such a
damages claim under § 1983 would unduly upset the
justifiable reliance interests of the private defendant.
In attending to that concern, we do not embark
on a free-wheeling assessment of whether to import into
§ 1983 a policy based on protection of reliance
interests. See Malley v. Briggs, 475 U.S. 335, 342
(1986). Rather, we follow the Supreme Court in
recognizing that the text of § 1983 should be read with
some consideration of the background against which
the statute was enacted and thus with an
understanding that the common law’s rules “defining
the elements of damages and the prerequisites for
their recovery[] provide the appropriate starting point
for the inquiry under § 1983.”“ Carey v. Piphus, 435
U.S. 247, 257-58 (1978); see also Monroe v. Pape, 365
U.S. 167, 187 (1961) (noting that § 1983 “should be
read against the background of tort liability that makes
a man responsible for the natural consequences of his
actions”); cf. Heck v. Humphrey, 512 U.S. 477, 483
(1994) (explaining that “to determine whether there is
any bar to the present [§ 1983] suit, we look first to
the common law of torts”). Moreover, in undertaking
that review of the common law to assess the scope of
relief available for a claim for a constitutional
violation under § 1983, we must keep in mind the
Court’s observation that if “the interests protected by
a particular branch of the common law of torts . . .
parallel closely the interests protected by
a
particular constitutional right,” then it may be

App-11
“appropriate to apply the tort rules of damages
directly,” Carey, 435 U.S. at 258, even if that rule is
not favorable to the plaintiff, see, e.g., id. at 254-57,
260-62 (relying on principles of common-law damages
to conclude substantial nonpunitive damages were
unavailable in the absence of proof of real injury).
A number of our sister circuits have followed
this approach to assessing the viability of similar
retroactive Janus-based damages claims under §
1983, and they have found that such claims closely
parallel common-law torts that provide relief for a
defendant’s misuse of official governmental processes.
See Diamond v. Pa. State Educ. Ass’n, 972 F.3d 262,
280 (3d Cir. 2020) (Fisher, J., concurring in the
judgment) (collecting cases). They have also
recognized that those common-law torts -- abuse of
process and malicious prosecution -- require a plaintiff
to show malicious or improper use of the process by
the defendant. See, e.g., Janus v. Am. Fed. of State,
Cnty. & Mun. Emps., 942 F.3d 352, 365 (7th Cir. 2019);
see also 54 C.J.S. Malicious Prosecution § 2 (2020)
(“The wrongful use of a civil proceeding is a tort which
arises when a party institutes a lawsuit with a
malicious motive and lacking probable cause.”);
Pinsky v. Duncan, 79 F.3d 306, 312 (2d Cir. 1996)
(“[A]buse of process tort has but two elements: ‘first,
an ulterior purpose, and second, a willful act in the use
of the process not proper in the regular conduct
of the proceeding.’“ (quoting W. Page Keeton et al.,
Prosser and Keeton on the Law of Torts § 121, at 898
(5th ed. 1984))). Accordingly, they have rejected
retroactive Janus-based claims for damages under §
1983, precisely because Janus had not overruled
Abood at the time that the agency fees at issue in
them were collected and thus the malicious- or

App-12
improper-use-of-process element, which the analogy to
those common-law torts suggests that Congress
intended to be imported into those plaintiffs’ § 1983
claims, could not be satisfied. See Diamond, 972 F.3d
at 280 (Fisher, J., concurring in the judgment)
(collecting cases); see also Wyatt, 504 U.S. at 174
(Kennedy, J., concurring) (“[T]here is support in the
common law for the proposition that a private
individual’s reliance on a statute, prior to a judicial
determination of unconstitutionality, is considered
reasonable as a matter of law . . . .”); San Antonio
Indep. Sch. Dist. v. Rodriguez, 411 U.S. 1, 60 (1973)
(Stewart, J., concurring) (noting that “one of the first
principles of constitutional adjudication” is “the basic
presumption of the constitutional validity of a duly
enacted state or federal law” (citing James B. Thayer,
The Origin and Scope of the American Doctrine of
Constitutional Law, 7 Harv. L. Rev. 129 (1893))).
The Union urges us to follow that same logic
here, and thus to find that the District Court correctly
held that Doughty and Severance’s damages claim
fails. In support of our doing so, moreover, the Union
points to a substantial body of § 1983 precedent
that they contend is directly analogous here. In it,
circuits have consistently treated the common-law
torts concerning misuse of state processes -- whether
the tort of abuse of process or malicious prosecution -as closely analogous to § 1983 claims for violations of
procedural due process that have been brought
against private defendants who have availed
themselves of state summary process statutes for
effecting the seizure of property, whether through
attachment or replevin or the like. See, e.g., Pinsky,
79 F.3d at 312; Jordan v. Fox, Rothschild, O’Brien &
Frankel, 20 F.3d 1250, 1276 & n.31 (3d Cir. 1994);

App-13
Wyatt v. Cole, 994 F.2d 1113, 1119 (5th Cir. 1993); see
also Duncan v. Peck, 844 F.2d 1261, 1267-68 (6th Cir.
1988). To be sure, the constitutional violation that
grounds those § 1983 claims is a product of the flawed
design of the state-backed summary process that the
private defendant relied upon to acquire the plaintiff’s
property, Wyatt, 504 U.S. at 161-62, and not of the
defendant’s use of that process for other than its
intended purpose. And, in that respect, there is not a
perfect match between the interests protected by
those common-law torts and the interests protected by
the constitutional right to procedural due process that
underlies the § 1983 claim in those cases. Nonetheless,
that line of authority still holds that such § 1983
claims are properly analogized to these common-law
torts, and thus courts consistently have held those
claims to be unavailing when they seek damages
for a defendant’s use of a summary process statute
that was entirely lawful when invoked but that was
then retroactively held to violate procedural due
process only due to a subsequent change in the law.
See, e.g., Wyatt, 994 F.2d at 1120-21.
Notably, Doughty and Severance do not argue
that we must reject this line of § 1983 authority
concerning challenges to summary process statutes to
rule for them in this case. They contend only that this
substantial body of § 1983 precedent is
distinguishable due to the type of claim that they are
bringing under § 1983, such that this line of precedent
that is seemingly problematic for them in fact
provides no support for the Union’s position. That is
so, Doughty and Severance contend, both because
their § 1983 claim seeks to vindicate a violation of the
First Amendment, not the right to procedural due
process, and because the Union did not invoke any

App-14
court-like process in collecting the agency fees, as the
plaintiffs in the
summary-process-focused § 1983
cases did in acquiring the property at issue in them.
Additionally, Doughty and Severance assert that,
given the nature of their § 1983 claim, the commonlaw backdrop of § 1983 in fact cuts in their favor,
because if any common-law tort is analogous to the
one that they are bringing under that statute, it is the
common-law tort of conversion, which permits a
plaintiff to recover damages without showing the
defendant’s malicious or improper use of any legal
process. But, we are not persuaded by these
arguments.
We do not dispute that Doughty and Severance
are right that their claim under § 1983 protects
against the harm caused by governmentally forced
speech and association. In that respect, it does protect
interests quite different from those protected by the
common-law torts of malicious prosecution and abuse
of process. But, as we have just explained, the
constitutional right to procedural due process that
underlies the § 1983 claims targeting summary
process statutes discussed above protects against a
failure of the state to provide enough process, not
against the misuse of a process that the state has
otherwise properly provided. Yet, it is that latter type
of misuse that constitutes the harm against which the
common-law torts of abuse of process and malicious
prosecution provide protection. So, there is little force
to this asserted point of distinction between Doughty
and Severance’s § 1983 claim and the body of § 1983
case law concerning summary process statutes.
Rather, their § 1983 claim, like the plaintiffs’ § 1983
claims in those cases, is similar to claims for those
common-law torts in that it seeks to compensate them

App-15
for a private party having used a lawful-wheninvoked, state-backed process to acquire their
property, even though that process was subsequently
held to be unlawful due to a change in the law. See
Ogle v. Ohio Civ. Serv. Emps. Ass’n, 951 F.3d 794, 797
(6th Cir. 2020) (“Think about the problem this way.
Public-sector unions may enlist the State’s help (and
its ability to coerce unwilling employees) to carry out
everyday functions. But a union that misuses this
help, say because the state-assisted action would
violate the U.S. Constitution, may face liability under §
1983.”).
Finally, while Doughty and Severance are right
that their Janus-based § 1983 claim seeks recompense
for the invocation of a state-backed process for
collecting payments that is distinct from the use of a
court process to effect a seizure, we do not see why that
distinction is a salient one. Some divergence is to be
expected even between a § 1983 claim and a commonlaw tort that it closely parallels. See Rehberg v. Paulk,
566 U.S. 356, 366 (2012) (explaining that § 1983 is not
“simply a federalized amalgamation of pre-existing
common-law claims, an all-in-one federal claim
encompassing the torts of assault, trespass, false
arrest, defamation, malicious prosecution, and
more”). Doughty and Severance, however, do not
explain -- nor does any explanation occur to us -- why
the distinction between the use of an adjudicative
process and an administrative one supports the
conclusion that the Union should receive less
protection for its good-faith reliance on the lawfulwhen-invoked, state-backed process than the
defendants in the summary-process § 1983 cases
received for theirs.

App-16
We suppose the distinctions that Doughty and
Severance point to between their § 1983 claim and the
common-law torts of abuse of process and malicious
prosecution might have force if there were any
indication that the common law was as indifferent to
reliance interests in a circumstance like the one at
issue here as they impliedly suggest is the case. For,
in that event, there would be no reason to be
concerned that, in permitting their damages claim to
lie, we would be anachronistically reading § 1983
without regard for the common-law understandings
that the Supreme Court has made clear informed
Congress in enacting that measure. But, Doughty and
Severance’s attempt to make that case with reference
to the common-law tort of conversion -- which does not
require a showing of malice and which they contend
supplies a more apt analogy to their Janus-based
claim -- is not convincing.
As an initial matter, Doughty and Severance
provide no support for their implicit premise that a
claim for conversion could have been brought at
common law for the recovery of a plaintiff’s payment
of a required fee when the funds used to pay it were
comingled with the defendant’s other funds following
its collection. See 7 Am. Law of Torts § 24:7 (explaining
that “before there can be a conversion” of money, there
is a “requirement that there be ‘ear-marked money or
specific money capable of identification’“); 44 A.L.R.2d
927 (1955) (“Money can be the subject of conversion
and a conversion action only when it can be described,
identified, or segregated in the manner that a specific
chattel can be . . . .”). Nor do they identify a single case
in which a claim for conversion was successfully
brought at common law for damages arising from the
defendant’s collection of money payments revealed to

App-17
have been made pursuant to an illegal requirement
only in retrospect, and then only due to the subsequent
overruling of a prior Supreme Court precedent under
which the requirement was lawful at the time that it
was imposed. Their failure on that score is especially
conspicuous given how common- law claims for
recovering licensing fees and taxes based on the
retroactive application of such a sharp change in the
law fared. Cf. Diamond, 972 F.3d at 281 (Fisher,
J., concurring in the judgment) (describing the
“contemporaneous” rule that “a judicial decision either
voiding a statute or overruling a prior decision does
not generate retroactive civil liability with regard to
financial transactions or agreements conducted,
without duress or fraud, in reliance on the invalidated
statute or overruled decision”); Note, The Effect of
Overruled and Overruling Decisions on Intervening
Transactions, 47 Harv. L. Rev. 1403, 1404 (1934).
From this review, then, we see no support for
concluding that the common law was as indifferent as
Doughty and Severance impliedly suggest that it was
to the threat to reliance interests posed by affording a
damages remedy for a private defendant’s acquisition
of payments via the invocation of then-lawful state
processes that -- due only to a subsequent change in
the law -- retroactively are revealed to have been
unlawful. And, because the Court has reminded us in
connection with § 1983 that “[r]ights, constitutional
and otherwise, do not exist in a vacuum,” Carey, 435
U.S. at 254, we are wary of attributing to the Congress
that enacted § 1983 an intent to permit a damages
claim to go forward in these most unusual
circumstances, just because § 1983 provides that a
remedy “at law” “shall be” available for a
constitutional violation.

App-18
That said, we do recognize that “[t]he purpose of
§ 1983 would be defeated if injuries caused by the
deprivation
of
constitutional
rights
went
uncompensated simply because the common law does
not recognize an analogous cause of action.” See
Carey, 435 U.S. at 258. For that reason, we are
mindful that “[i]n applying, selecting among, or
adjusting common-law approaches” to the new setting
of § 1983, we “must closely attend to the values and
purposes of the constitutional right at issue.” Manuel
v. City of Joliet, 137 S. Ct. 911, 921 (2017).
But, although Doughty and Severance assert
that their claim for damages seeks to vindicate their
First Amendment right against compelled speech and
association and that this right provides protection
from harm that the common law itself did not, they
ignore the unusual nature of their attempt to secure
relief for the violation of that constitutional right.
They thus develop no argument -- nor does any occur
to us -- why close attention to the values and purposes
of the First Amendment right against compelled
speech and association supports the conclusion that
the Congress that enacted § 1983 must have meant to
create a claim for damages for its retroactive violation
when the violation results in payments made
pursuant to a lawful-when-invoked, state-backed
process.
Nor are we persuaded by Doughty and
Severance’s contention that we must rule in their
favor based on Harper v. Virginia Department of
Taxation, 509 U.S. 86 (1993), in which the Court held
that when it applies a rule of federal law to the parties
before it that rule “must be given full retroactive effect
in all cases still . . . on direct review.” Id. at 97. Insofar

App-19
as the agency fees at issue here may be analogized to
the taxes collected in Harper -- itself a debatable
proposition -- Doughty and Severance make no
argument that they were precluded from bringing a
pre-collection claim challenging the lawfulness of the
required payment of agency fees on the ground that
Abood should be overruled. As a result, they do not
explain how the Supreme Court’s retroactivity
jurisprudence provides any support for the conclusion
that § 1983 provides a remedy for the First
Amendment violation that grounds their claim under
that statute. See McKesson Corp. v. Div. of Alcoholic
Beverages & Tobacco, 496 U.S. 18, 38 n.21 (1990)
(explaining
that
the
“availability
of
a
predeprivation hearing” can also “constitute[] a
procedural safeguard . . . sufficient by itself to satisfy
the Due Process Clause, and taxpayers cannot
complain if they fail to avail themselves of this
procedure”); see also Nat’l Private Truck Council,
Inc. v. Okla. Tax. Comm’n, 515 U.S. 582, 587 (1995)
(“As long as state law provides a ‘clear and certain
remedy,’ the States may determine whether to provide
predeprivation process (e.g., an injunction) or instead
to afford postdeprivation relief (e.g., a refund).”
(internal citations omitted) (quoting McKesson Corp.,
496 U.S. at 51)).
III.
Doughty and Severance do separately make a
demand for restitution, which is an equitable rather
than a legal remedy. And it is true that § 1983
empowers courts to hold a party that violated
another’s federal rights “liable” in a “suit in equity.”
42 U.S.C. § 1983. But, as Doughty and Severance do
not plead that the specific agency fees they paid can

App-20
“clearly be traced to particular funds or property in
the [Union’s] possession,” see Great-West Life &
Annuity Ins. Co. v. Knudson, 534 U.S. 204, 213 (2002),
their claim is necessarily “one against the union’s
treasury generally, not one against an identifiable fund
or asset,” which makes it inherently legal in nature,
Mooney v. Ill. Educ. Ass’n, 942 F.3d 368, 371 (7th Cir.
2019). Accordingly, their restitution claim fails, too.
IV.
The judgment of the District Court is affirmed.

App-21

Appendix C
UNITED STATES DISTRICT COURT DISTRICT
OF NEW HAMPSHIRE
PATRICK DOUGHTY and
RANDY SEVERANCE,
as individuals and
representatives of the requested
class,
Plaintiffs,
v.
STATE EMPLOYEES’
ASSOCIATION OF NEW
HAMPSHIRE, SEIU, LOCAL
1984, CTW, CLC,
Defendant.

)
)
)
)
)
) Case No.
) 19-cv-53-PB
)
)
)
)
)

JUDGMENT
In accordance with the Oral Order by Judge
Paul Barbadoro on May 30, 2019, judgment is hereby
entered.
The prevailing party may recover costs
consistent with Fed. R. Civ. P. 54(d) and 28 U.S.C. §
1920.
By the Court:
Daniel J. Lynch
Clerk of Court
Date: May 30, 2019
cc: Counsel of Record

App-22

Appendix D
UNITED STATES DISTRICT COURT DISTRICT
OF NEW HAMPSHIRE
PATRICK DOUGHTY and
RANDY SEVERANCE,
as individuals and
representatives of the requested
class,
Plaintiffs,
v.
STATE EMPLOYEES’
ASSOCIATION OF NEW
HAMPSHIRE, SEIU, LOCAL
1984, CTW, CLC,
Defendant.

)
)
) Case No.
) 19-cv-53-PB
)
) May 30, 2019
) 2:01 p.m.
)
)
)
)
)

TRANSCRIPT OF MOTION HEARING BEFORE
THE HONORABLE PAUL J. BARBADORO
Appearances:
For the Plaintiff:

Frank D. Garrison, Esq.
Milton L. Chappell, Esq.
National Right to Work
Legal Defense Foundation
Cooley Ann Arroyo, Esq.
Cleveland, Waters & Bass

For the Defendant:

Ramya Ravindran, Esq.
Leon Dayan, Esq.
Bredhoff & Kaiser PLLC
John S. Krupski, Esq.
Milner & Krupski, PLLC

App-23
Court Reporter:

Liza W. Dubois, RMR
Official Court Reporter
U.S. District Court
55 Pleasant Street
Concord, New Hampshire

THE CLERK: This Court is in session and has
for consideration motion hearing in civil matter 19-cv53-PB, Patrick Doughty, et al., vs. State Employees’
Association.
THE COURT: Does anybody want to draw at
cases to my attention – my attention that have been
decided since the last supplemental authority that
I’ve been provided with.
No, Okay. All Right.
So I’s like the plaintiffs to explain to me why I
shouldn’t grant to motion to dismiss from the bench
for the reasons set forth in the court’s opinion in Babb
and the unanimous reasoning expressed in all of the
other district court cases that have addressed the
question.
MR. GARRISON: Thank you, your Honor.
I would submit that those cases, they don’t take
into consideration the proper analysis that the
Supreme Court has put forth to find new defenses and
immunities under 1983. Those cases basically state
that you have to look to the common law.
THE COURT: So let me - - let me be clear.
Your argument is not that this cases is in any
way distinguishable: your case is based on the
premise that these opinions are all wrongly decided.

App-24
MR. GARRISON: They – yes, your Honor.
THE COURT: Okay.
MR. GARRISON: So the Supreme Court has
always said that Section 1983, if they find immunities
or defenses you have to look to common law. And if
you can find something, usually through an analogous
tort or there’s a defense at common law, then you can
adopt that. Otherwise, you are acting outside of
basically what Congress intended and any - - anything
else is just pure policymaking. And - THE COURT: You mean like the government
contractor defense Justice Scalia created in the
helicopter case?
MR. GARRISON: No.
THE COURT: That’s a Supreme Court case
where Justice Scalia, the great critic of judicial
activism, created an affirmative defense essentially
out of whole cloth and called it Federal Common Law
Government contracting defense.
Mr. GARRISON: Yeah, I submit that this Court
shouldn’t do that. Basically, you know, if they’re going
to - - if a defense is going to be found, it should be
found through common law.
Like I said, congress is –
THE COURT: Can we step back for a second
just tell me how in any version of the world would it
be right to require these defendants to pay damages
for acting consistent with the requirements of the
state law and the -- and the Supreme Court
precedent?

App-25
MR. GARRISON: Because if you like at cases
like Owen, the Supreme Court has said the point of
1983 is to make people whole for violations of
constitutional law.
THE COURT: But without regard of fault?
MR. GARRISON: That’s what Congress
enacted, and there is no immunity or defense in
section 1983.
THE COURT: No, you’re missing the point. I
mean, I’m making you a broader theoretical question.
Of course I’ll ultimately decide the question in
accordance with what the requirements of law are, but
how could you possibly construct an argument that it’s
right and just to make defendants pay damages for
acting in a way that the state law and the Supreme
Court told them to act?
MR. GARRISON: Well, I think the Supreme
Court had foreshadowed that they were doing was
likely unconstitutional.
THE COURT: So the – the – the defendants
should have disregarded state law, refused to follow
state law?
MR. GARRISON: It – Section 1983 is a
deterrent statute. If they had any qualms about what
–
THE COURT: So really what you’re saying,
though, is they should have defied state law. They
should have said the Constitution – even though they
Supreme Court has said this behavior is
constitutional, we are – will refuse to comply with
state law because we thing the Supreme Court in the
future will change its mind.

App-26
MR. GARRISON: I think that’s true. If you look
at the Supreme Court’s retroactivity jurisprudence, in
Harper they said that we can apply law retroactively.
The unions must have known that. And there’s a
change you’re violating somebody’s First Amendment
rights. That’s the whole point of Section 1983 - THE COURT: It is –
MR. GARRISON: -- is to vindicate people.
THE COURT: Is it true that at the same time
these defendants were engaging in the conduct that
you are challenging that state law authorized the
collection of fees?
MR. GARRISON: Yes.
TRE COURT: Okay, so you want them to defy
state law.
MR. GARRISON: State law only authorizes
these contracts. They don’t have to put those in their
contracts. These are negotiations between the state
and the union. They could have, out of abundance of
caution for respecting people’s First Amendment
rights, not included that in their contract.
THE COURT: I have a lot of trouble seeing it.
So - - all right. So let’s get back to your legal
argument. Your legal argument is that a good faith
defense can only be recognized where you can identify
an analog in state law, a state tort affirmative defense
of good faith.
MR. GARRISON: I believe that’s so, your
Honor, because what the Supreme Court has said is -

App-27
THE COURT: Well, didn’t the Court in Babb - and following reasoning that other courts have looked
at - - said the injury that you’re suing for is a
constitutional injury and the analog to conversion
that you’re trying to draw just isn’t is an appropriate
one.
And so you’re suggesting that there shouldn’t
be any good faith defense for engaging in conduct that
you in a good faith believe is constitutional. You don’t
dispute that these defendants in good faith, looking at
Supreme Court precedent at the time they were
acting, that they acted in good faith in believing that
the - - their actions were constitutional, right?
MR. GARRISON: I would dispute that, your
Honor. I - THE COURT: Really, what is the basis in your
complaint or in any facts you want to draw to my
attention to suggest that these defendants did not act
in good faith?
MR. GARRISON: Well, I think, your Honor,
that when Harris and Knox were decided, they were
told that Abood was on shaky ground. And so if you
can – I mean, that is a 12(b) (6) motion, so –
THE COURT: Yeah, I’m just saying tell me that
you’ve pleaded that would support a conclusion that MR. GARRISON: I don’t - THE COURT: a plausible claim that these
defendants have acted in bad faith.
MR. GARRISON: Well, I don’t think we have
to, your Honor. This - -

App-28
THE COURT: Because you don’t think there’s
a – so I’m just saying – yeah, I – what I’m asking you
is essentially to say, Judge, we agree that if there’s a
good faith defense, we lose, because we are not going
to try to prove that these defendants acted in bad
faith; our claim depends entirely upon our view that
the law does not authorize a good faith defense in this
circumstances.
I think that’s what you’re saying. If you’ll say
it, we can move on.
MR. GARRISON: No, no. I - - I would not day
that your Honor, because if you look at case like
Wyatt, if the Court finds that common law analog
closer to abuse of process, which we don’t think it can
because that tort just doesn’t fit, then we have to be
able to prove subjective bad faith. And that’s
something we can do through discovery in - THE COURT: How?
MR. GARRISON: - - in summary judgment.
We can look at correspondence the union had,
what their internal thoughts were when it came to - THE COURT: But the law was the law. Their
behavior was entirely constitutional at the time they
engaged in it.
MR. GARRISON: And that would - - well, that’s
questionable, your Honor.
THE COURT: Why is it questionable? The
Supreme Court precedent has said that their behavior
is constitutional.

App-29
MR. GARRISON: The Supreme Court had said
that, but the law –
THE COURT: But you’re - - you are – you want
to take the law back to pre-Erie against Tompkins.
You – your theory of the constitution is that the
Constitution and all the law is a brooding
omnipresence that is - - in which it is found by the
Court. It predates humanity. It predates the existence
of human beings. There is a constitutional law that
does not require any human action and the Court
finds it somewhere.
Is that what you’re saying?
MR. GARRISON: That - - since the
Constitution was ratified, the Supreme Court - - they
find law. They do not make law. The - - the violations
in this case have always been - THE COURT: You’ve read
Tompkins, right?

Erie against

MR. GARRISON: I - - in law school, your Honor.
THE COURT: Okay. Well, go back to it. Do you
know the phrase “brooding omnipresence”? That - that was a view of the law that has been rejected by
the Supreme Court for over hundred years.
So I just don’t - - I - - I personally don’t
understand that kind of conception. You’re saying
that even though the Supreme Court at the time has
declared the actions to be constitutional, their actions
were, in fact, unconstitutional and they’re just waiting
for the Supreme Court to correctly declare the law.

App-30
MR. GARRISON: I - - I think that’s right, your
Honor. And the Supreme Court in Harris and Knox
foreshadowed that, which would reduce any reliance
interest anybody had.
Plus, cases - - the - - cases like Harper say that
the law applies retroactively. If - - if that wasn’t the
case, then if the Supreme Court just made law, then
there would be no retroactivity.
THE COURT: Okay. So you want to finish your
argument about why a good faith defense requires
reference to a common law analog? Is there more you
want to say on that?
MR. GARRISON: Right. So Congress in 1871
provided to immunities or defenses. The Supreme
Court had said that if there was - - that basically
Congress wouldn’t have intended to do away with all
of the previous immunities and defenses.
So - THE COURT: Well, 1983 doesn’t provide for
qualified immunity.
MR. GARRISON: No, it doesn’t, and the Court
has - - but the court has found exceptions of where
there - THE COURT: Right.
MR. GARRISON: - - where those were present
at common law.
THE COURT: And Courts like Babb say that
you don’t look to a common law analog; you look to the
same kind of reasoning that led the court to recognize
qualified immunity.

App-31
And you just think that’s wrong, right?
MR. GARRISON: Yeah, I think the Supreme
Court has said that. They have basically - - if you look
at Justice King’s concurrence in Wyatt, he said, we
look to the common law because we can’t just - - it’s
just not freewheeling policymaking when we find
these things. And if there’s a - - if there’s no defense
in common law, then courts are just making it up; they
are just saying, we think - THE COURT: You think they just make up the
qualified immunity for 1983 claims against
government officials? They just made it up; is that it?
MR. GARRISON: No, I don’t think so, your
Honor.
THE COURT: Where’d it come from?
MR. GARRISON: They look to common law. In
fact, for absolute immunity, they found these things
were always there in common law, so they were going
to apply them. They said Congress couldn’t have
intended to get rid of these.
But if they’re not there at the common law, then
it’s just making up - - Congress - - it just wasn’t there.
You can’t just defy Congress and say that we’re just
going to create these things without congressional
intent.
THE COURT: I’m not a fan of defying Congress.
MR. GARRISON: No, I wasn’t saying - THE COURT: That’s not what I do.
MR. GARRISON: -- you. Sorry.

App-32
But it’s statutory construction, right? Congress
is the one that makes the law. They make the defenses
and immunities.
THE COURT: Yeah. They didn’t
immunity. Immunity was created by Court.

make

MR. GARRISON: And the Court said that the
only reason that we’re going to do that is because that
common law - - Congress would have abrogated these
immunities. That’s the whole basis for the immunities
and defenses.
THE COURT: You think that the majority of
the Supreme Court, applying their approach to
statutory construction today, would say the same
thing?
MR. GARRISON: Absolutely not, your Honor.
THE COURT: Yeah.
MR. GARRISON: I think they are looking at
precedent. But it - - the - - I mean, the rationale still
holds, though, that without Congress providing these
things, then it’s just common law judging.
THE COURT: Okay. So your view is it’s most
analogous to conversion. Conversion didn’t have a
good faith defense; it’s not analogous to other torts
that do have a good faith defense; you can’t find good
faith defense unless you can find a state court analog;
because you can’t, there isn’t one; because there isn’t
one, the plaintiffs’ claim - - the defendant’s motion to
dismiss should necessarily be denied.
MR. GARRISON: Exactly, your Honor.

App-33
THE COURT: All right. Is there anything more
you want to add on that subject?
MR. GARRISON: No.
THE COURT: All right. Thank you.
I’ll hear your response.
MS. RAVINDRAN: I’ll be brief, your Honor. So
I think your Honor has already drilled down to what
the dispositive fact in this case is, which is as the
plaintiffs acknowledged in their brief, their claim is
directed solely at fees that were collected prior to the
Janus decision. It is disputably the case that those
fees were collected - - were authorized by New
Hampshire law and were upheld as constitutional by
then-controlling law.
THE COURT: If you accept the plaintiffs’
premise that it would be improper as a matter of
statutory construction to recognize an affirmative
good faith defense unless you can find an analog in
state common law, if you accept that premise as a
starting point, what would you say is the most
analogous tort in which a common law defense has
been recognized?
MS. RAVINDRAN: Right. So the - - the analog
that I would use is abuse of process and it’s for this
reason.
So the reason that we are here on this Section
1983 claim with - - as with the private party, as my
client is, goes back to Lugar. It’s the reason that - that the conduct there falls under the - - you know,
arguably falls under the rubric of under color of state
law is that the defendant, acting with participation of
state officials, had invoked a state process by which

App-34
fees were deducted by the state, by the plaintiff’s
employer, and then remitted to the union. So and it’s
that use of the state process is the reason that we are
even here for Section 1983 - THE COURT: Explain that to me in a little
more detail.
MS. RAVINDRAN: Yes. So the way fair share
fees, the fees that are at issue here, are collected
under the state procedure that’s set up here in New
Hampshire is under the New Hampshire Public
Employee Labor Relations Act, unions are authorized
to negotiate and to collect a bargaining agreement
that is at issue here and that time period that’s
relevant here authorized the deduction - - required
that payment of fair share fees by employees like the
plaintiffs who are in the bargaining unit that is
represented by union, but who declined to become
members of the union.
THE COURT: Right. So it is that process that
you say authorizes the fees and to the extent there
was a wrong, it was misuse of that process. Since the
most analogous tort in your view would then be abuse
of the process and a good faith defense was available
to an abuse of process tort, it should be - - also be
recognized here.
MS. RAVINDRAN: Correct - THE COURT: Okay.
MS. RAVINDRAN: - - that would be our
position under the analysis.
THE COURT: All right, Now, what do you say
to his - - I assume you take the same position as the
Court did in Babb that it is not necessary to find a

App-35
state law analog to the good faith defense that you’re
asking us to - - asking the Court to recognize here.
What do you say to the defendant’s argument
that any defense to a 1983 claim can only be
recognized - - and he says including qualified and
absolute immunity are all derivative of state common
law claims and, therefore, to the extent that the Court
in Babb or you contend that there isn’t a need for state
precedent? What do you say to that?
MS. RAVINDRAN: Well, what I would say is
that if we – and we can go back to Justice Kennedy’s
concurrence in Wyatt, as plaintiffs have cited, where
– which is where the roofs of the good faith defense
first started. And what Justice Kennedy says in that
concurrence is that there was support in the common
law for the proposition that is reasonable as a matter
of prior to any judicial determination of
unconstitutionality.
So that – that is already embedded in the
common law and that is the rationale that – in the five
circuit courts that have had occasion to address the
good faith defense, who adopted that rationale of that
-THE COURT: This goes beyond that. This is a
case where they - - the defendant had not just state
law that authorized the specific action they engaged
in, but Supreme Court precedent - MS. RAVINDRAN: Correct.
THE COURT: -- recognized that their actions
were entirely consistent with the constitution.
MS. RAVINDRAN: That’s correct, your Honor.

App-36
So applying the good faith defense into the
circumstances of this case is actually a small subset of
the - - of what the other circuit courts who have had
reason to address the issue of the good faith defense
have recognized. Because in those five circuit courts,
there was no on-point Supreme Court decision that
had evaluated the exact same conduct that was at
issue in the Section 1983 claim.
There was a state – a state law that authorized
the conduct and under those circumstances, those
courts did recognize a good faith defense that would
be applicable in that situation.
Our case is much stronger, in my view, because
there is - - if you take the language in the Fifth Circuit
in Wyatt, which was the First Circuit Court to
recognize the good faith defense, the standard they
use is whether they knew - - whether the defendant
knew or should have known that the statute they’re
relying on is constitutional.
At the time period in which the fees were
collected, there’s no question that the statute on which
the union was relying on was constitutional because
Abood had - - was the controlling law of the land at
the time and it had addressed the exact same conduct
that is at issue here.
THE COURT: Yeah, I - - as I said, stepping
away from the pure technical legal analysis, it is
incomprehensible to me the idea that under the
unique circumstances of this case, which is something
that will occur very rarely during the life of the county
-MS. RAVINDRAN: Right.

App-37
THE COURT: - - in which the Supreme Court
decided to flatly overturn its prior precedent - - we
want people to rely on our decisions. One of the
reasons that judges express their views in written
options is so that people can rely on it. And then to
suggest that when judges flip 180 degrees on the law
that people who we want to rely on our decisions are
then subjected to suits for damages because we
changed our mind seems arrogant in the extreme.
It - - it’s incomprehensible to me that courts
would allow for damage actions to be maintained
under those unique circumstances. I just - - I can’t
even begin to understand the idea that any court could
award - - allow an action to proceed in a case like this.
I - - I mean, it’s just incomprehensible.
We want - - we issue decisions and we want
people to follow them. We don’t want people - - to tell
people, look, follow us, but if we decide to change our
mind later, you’re going to have to pay damages. That
- - that’s crazy.
MS. RAVINDRAN: I agree with every word of
that, your Honor.
THE COURT: All right. So, in any event, what
else would you like to say?
MS. RAVINDRAN: Unless the Court has
questions - THE COURT: No, I want to hear a response to
anything that’s been said by the defendant’s counsel.
MR. GARRISON: Your Honor, I would just like
to respond to a couple points.

App-38
So the first one being about people not being
liable for damages. Our clients had their
constitutional right violated, their First Amendment
rights - THE COURT: No, I doubt - - I don’t even
understand that. I thought their constitutional rights
were actually - - were not violated at all because the
Supreme Court at the time the actions occurred said
that their conduct was constitutional.
MR. GARRISON: So basically in saying that - THE COURT: The Supreme Court changed the
law. You have – you – you have this idea that the law
was always there and it was always unconstitutional,
but it was just hidden because the Supreme Court was
screwed up when they said something. And I just have
a different conception of the way the law works.
MR. GARRISON: I understand, your Honor,
but as the Supreme Court said, the retroactivity
jurisprudence says these cases are retroactive to every
case that’s open.
So our clients’ First Amendment rights were
violated. They had their money taken, spent on
ideological things that they did not want. They
objected the whole time.
If there’s a – if this is purely equities and not a
statutory interpretation case, then those equities need
to be balanced. I don’t think there’s any opinion that
has ruled on this case that has looked to our clients’
or other people’s First Amendment rights when
balancing the equities. As the Supreme Court said in
Owen, 1983, the history and purpose of it was give
people damages for - -

App-39
THE
COURT:
The
State
Employees’
Association is an association of current and former
employees, is that - - state employees? Is that what
the - - the State Employees’ Association is?
MR. GARRISON: Yes.
THE COURT: Yeah.
MR. GARRISON: Yes.
THE COURT: And so what you’re saying now
is people who are - - who are paying fees to support
the State Employees’ Association today should be
required to have their money diverted to pay
employees for things that happened in the past. So we
should take money from them and give it to these
employees whose – whose conduct - - who were
injured, in your view, in the past. So it’s basically
taking money from someone who’s done nothing
wrong, through their association, and giving it to your
clients because they were wronged.
MR. GARRISON: If you look at the Supreme
Court’s jurisprudence in Owen, that’s pretty much
exactly what they were doing. It was a municipality.
This is a private association corporation. And if we’re
going to decide who the equities go for, then it should
be the people that got their First Amendments rights
violated. Most of - THE COURT: Yeah, I don’t agree with that. It’s
not - - I don’t think it matters one way or the other to
the analysis of the questions raised your complaint.
MR. GARRISON: Well, the - - what I’m saying
is if - - if we’re just going off pure equities, not looking
at the common law statutory construction, we’d just
ask the Court to balance the equities. That’s what

App-40
they’re asking for. They’re asking for basically an
affirmative defense based in policy.
THE COURT: Okay. Why - - why is not abuse
of process the better analog than conversion?
MR. GARRISON: Because abuse of process is
an historical tort, is using the court system to
basically try to get people’s property through
unconstitutional means.
THE COURT: All right. Aren’t they using
process authorized by the state law?
MR. GARRISON: Your Honor, if you define
process at that level of generality, then everything is
an abuse of process tort. We just don’t believe that - they’re trying to shoehorn that in here and it just
doesn’t fit. The most analogous tort is conversion.
They took people’s property against their will and
spent it on stuff that they did not want, on ideological
activities that they did not want. Their First
Amendment rights were violated and - - by taking
their money and spending it.
THE COURT: Okay. What else would you like
to say?
MR. GARRISON: I would just like to say that
the Ninth Circuit cases, Babb included, are all
following Clement, which did not do a common law
analysis. It just assumed that there was a good faith
defense, applied it to the facts of the case. So the Ninth
Circuit cases, Babb included, are basically just ruling
on those free from any common law basis. I mean,
some in passing have said, you know, this is more
likely the abuse of process, but haven’t given it really
any analysis. We just ask the Court - -

App-41
THE COURT: Well, Babb - - Babb does that
analysis.
MR. GARRISON: Well, it – not in any – I don’t
think it does it in any proper – it doesn’t give it the
proper, I don’t know, analysis that it deserves.
THE COURT: All right. Hang on a minute.
MR. GARRISON: It does give an analysis. I
apologize, your Honor.
THE COURT: I thought it did. I just – I - - I just
wanted to look through.
And when I read it earlier, I understood it to
present that analysis. But you can disagree with it. I
–
MR. GARRISON: Yeah, I do disagree with it.
And it’s just – we think it’s a little - - you know, it’s in
one paragraph.
THE COURT: Yeah.
MR. GARRISON: So…
THE COURT: That’s fine. I understand that.
Anything else that you’d like to say?
MR. GARRISON: No, your Honor.
THE COURT: Okay.
MR. GARRISON: I just would like to close with,
you know, if we’re going to be balancing equi8ties, we
would like the court to take into consideration that
our
clients
had
their
First
Amendment rights violated and we don’t think that
any of the previous cases have done that.

App-42
THE COURT: All right. And I - - and, believe
me, I think it’s very important for courts to pay careful
attention to First Amendment considerations. I don’t
think you’ll find a judge who has a more aggressive
enforcement of First Amendment rights than me. The
only two times I have found state statutes to be
unconstitutional are claims - - cases in which those
state statutes have been applied to violate the First
Amendment rights of the plaintiffs. One was a
pharmacy information law that violated the rights of
the plaintiffs in that case. I invalidated the law on
First Amendment grounds. I was reversed by the
Supreme Court and my view was prevailed.
A couple years – a few years ago, I invalidated
a law that banned what are called ballot selfies on
First Amendment grounds. My view on that point was
upheld by the First Circuit Court of Appeals.
I fully undoes vigorous enforcement of people’s
First Amendment rights. In my view, this issue has
nothing to do with that. It - - the underlying claim is
a First Amendment claim, but the - - the fundamental
problem here is that this is a case that requires a good
faith defense, in my view. It’s a case in which without
regard to a state law analog, a good faith defense must
be available to protect defendants under these kinds
of circumstances and it can - - its existence can be
inferred from Supreme Court precedent recognizing
the qualified immunity doctrine in a related context.
To the extent that a state law analog is
required, I agree with the plaintiffs in this case that
abuse of process is a much stronger analog than
conversion. A good faith defense has traditionally
been recognize for the abuse of process torts and it’s
appropriate to analogize to that.

App-43
I don’t believe conversion is the appropriate
analogy here. The injury to your clients, as the Court
points out in Babb, is an - - a First Amendment injury.
It’s an injury to their dignity and autonomy in being
forced to support speech that they don’t agree with.
That tort is not really a conversion tort and I think the
abuse of process tort is a better analog. To the extent
that a future court should decide that there must be a
state law analog, I agree with the court in Babb that
abuse of process provides the better analog.
I find the reasoning of the court in Babb to be
very carefully expressed. I don’t find there to be any
facts in this case as pleaded in the complaint that
distinguish the - - your clients’ claims from the claims
that were at issue in Babb. I recognize that Babb. I
recognize that Babb was decided in the Ninth Circuit
and is subject to Ninth Circuit precedent. It doesn’t
restrict me here.
But I find the reason that underlies that
precedent to be entirely persuasive. I endorse it. I
don’t find any basis on which to distinguish your case
from the cases in which courts around the country
have unanimously agreed that your cause of action is
subject to a good faith defense. I do not see any - - any
unusual circumstances in this case which would
prevent me from recognizing the existence of a good
faith defense and determining that it’s appropriate to
consider it here on a Rule 12(b) (6) motion.
Of course, in ruling on 12(b) (6) motion, I - - I
am required to follow the standard adopted by the
Supreme Court in Iqbal and Twombly. I’m required to
examine the complaint, strike out any allegations in
the complaint that are conclusory, look at what

App-44
remains and ask whether it states a plausible claim
for relief.
First Circuit precedent does allow me to grant
a motion to dismiss in certain circumstances based on
the availability of an affirmative defense. As I’ve
explained, I believe for the reasons set forth by the
court in Babb and the other courts that have reached
a similar conclusion that a good faith defense is
available to the plaintiffs here and I agree - - I agree
with those courts that it is appropriate to recognize
that defense and apply it here in response to the
complaint that you have brought.
Doing that, and using the 12(b)(6) standard, I
have concluded that even construing the allegations
in the complaint in the light most favorable to you that
you have not stated a plausible claim for relief in light
of the affirmative defense that I find is available to the
plaintiff.
Accordingly, I grant the motion to dismiss. And
I don’t see any reason to allow you to leave to amend
because there doesn’t appear to be any - - to be any
unusual circumstances that would require an
amendment or that an amendment could cure the
defects that I’ve identified in the complaint.
I think you’d be better off, frankly, just devoting
your resources to an appeal. So you should try to get
the First Circuit to reach a different conclusion from
me, which I respect that it’s always possible that it
could do. And that’s where you really need to be
expending your time and your energy.
I don’t think I have anything to add to the
analysis that the other district courts that have taken
it on have addressed, but if you think there’s more

App-45
that I need to do, questions that you think I need to
respond to, tell me now and I’m happy to provide
further analysis to support my conclusion. But I think
I’ve made it clear to you how I think about the case
and as I said, I - - I think you should go ahead and
appeal and see what the First Circuit says.
But do you want - - is there more you need me
to do by wat of analysis so that the case can be ready
for appellate review by the First Circuit?
MR. GARRISON: I don’t think so, you Honor.
THE COURT: All right.
Is there anything more that the plaintiff wants
me to do?
MS. RAVINDRAN: No.
THE COURT: I really don’t see any point in
writing - - not because I think your argument is legally
frivolous. I want to be clear about that. First
Amendment issues are important. People like you
should be able to come to the courts and express novel
ideas about how your clients should be entitled to
relief. I respect that and I’m not saying your claims
are frivolous.
I’m saying I just can’t conceive of how they
could ever be allowable under the law as I understand
it to be. And to the extent you wish to break new
ground, the fact that all the other courts are ruling
against you shouldn’t deny you an opportunity to seek
review from an appellate court that’s very experienced
at addressing First Amendment claims and issues of
this sort.

App-46
And so I - - I’m not, in ruling from the bench,
intending to suggest that your claim is frivolous. I’m
merely suggesting that I don’t see how it can be
possibly proceed. And to the extent I would allow it to
proceed, I would need guidance from the First Circuit
explaining to me why the claim is potentially viable.
And that’s all I’m trying to say here today. Okay?
All right. The defendant’s motion to dismiss is
granted.
Thank you.
MR. GARRISON: Thank you.
(Proceedings concluded at 2:35 p.m.)

App-47
CERTIFICATE
I, Lisa W. Dubois, do hereby certify that the
foregoing transcript is a true and accurate
transcription of the within proceedings, to the best of
my knowledge, skill, ability and belief.
Submitted: 6/6/19

/s/ Liza W. Dubois
LIZA W. DUBOIS, RMR, CRR

App-48

Appendix E
UNITED STATES DISTRICT COURT DISTRICT
OF NEW HAMPSHIRE
PATRICK DOUGHTY and
RANDY SEVERANCE,
as individuals and
representatives of the requested
class,
Plaintiffs,
v.
STATE EMPLOYEES’
ASSOCIATION OF NEW
HAMPSHIRE, SEIU, LOCAL
1984, CTW, CLC,
Defendant.

)
) Case No.
) 19-cv-53-PB
)
) COMPLAINT
) CLASS
) ACTION
)
) Jury Demand
) if any issues
) so triable
)

INTRODUCTION
1. Patrick Doughty and Randy Severance
(“Plaintiffs”) are public employees of the State of New
Hampshire who are exclusively represented by the
State Employees’ Association of New Hampshire,
SEIU, Local 1984, CTW, CLC (“SEIU 1984” or
“Union”). SEIU 1984 maintains and has maintained
collective bargaining agreements (“CBAs”) within the
limitations period with the State of New Hampshire
(“State”) that establishes and established the terms
and conditions of employment for Plaintiffs’ respective
bargaining units. Although Plaintiffs are not
members of the Union, they were forced by provisions
of the operative CBAs to pay union fees to the Union
as a condition of their employment. The State
deducted those compulsory fees without their consent
and remitted them to the Union.

App-49
2. On June 27, 2018, the United States Supreme
held:
States and public-sector unions may
no
longer
extract
fees
from
nonconsenting employees. * * *
Neither [a forced] fee nor any other
payment to the union may be deducted
from a nonmember’s wages, nor may
any other attempt be made to collect
such a payment, unless the employee
affirmatively consents to pay. By
agreeing to pay, nonmembers are
waiving their First Amendment
rights, and such a waiver cannot be
presumed.

Janus v. AFSCME, Council 31, 138 S. Ct. 2448, 2486
(2018) (citations omitted).
3. SEIU 1984 violated the First and Fourteenth
Amendments to the United States Constitution by
requiring Plaintiffs and other state employees (the
“Class Members”), the Class Plaintiffs seek to
represent, to pay compulsory union fees – despite
Plaintiffs’ and the Class Members’ not belonging to
the Union or authorizing the deductions.
4. Plaintiffs bring this civil rights action pursuant
to 42 U.S.C. § 1983 on behalf of themselves and all
others similarly situated, seeking: (a) judgment
declaring the Union’s practice of forcing Plaintiffs to
pay fees to fund union activities of any kind violates
the First and Fourteenth Amendments; (b) judgment
declaring the forced fee provisions of the CBA
covering Plaintiffs’ and Class Members’ bargaining
units violate the First and Fourteenth Amendments

App-50
and are null and void; and (c) damages in the amount
of the unlawful compulsory fees seized from
Plaintiffs and Class Members that SEIU 1984
demanded or received; and (d) costs and attorneys’
fees under 28 U.S.C. § 1920 and 42 U.S.C. §1988.
JURISDICTION AND VENUE
5. This is an action that arises under the Federal
Civil Rights Act of 1871, 42 U.S.C. § 1983, to redress
the deprivation, under color of state law, of rights,
privileges, and immunities secured to Plaintiffs and
Class Members by the United States Constitution,
particularly the First and Fourteenth Amendments.
6. The Court has subject-matter jurisdiction under
28 U.S.C. § 1331 and 28 U.S.C. § 1343.
7. This action is an actual controversy in which
Plaintiffs seek a declaration of their rights under the
United States Constitution. Pursuant to 28 U.S.C. §§
2201-2202, this Court may declare the rights of
Plaintiffs and grant further necessary and proper
relief based thereon, including injunctive relief
pursuant to Fed. R. Civ. P. 65.
8. Venue is proper in this Court pursuant to 28
U.S.C. § 1391 because the claims arise in this judicial
district and SEIU 1984 operates and does business
in this judicial district.
PARTIES
9. Plaintiff Patrick Doughty resides in Grafton
County, New Hampshire, and works throughout the
State of New Hampshire (“State”) as a public
employee of the State in a bargaining unit
represented by SEIU 1984.

App-51
10. Plaintiff Randy Severance resides in Merrimack
County, New Hampshire, and works in Merrimack
County, New Hampshire, as a public employee of the
State in a bargaining unit represented by SEIU 1984.
11. The State Employees’ Association of New
Hampshire, SEIU, Local 1984, CTW, CLC (“SEIU
Local 1984” or “Union”) is a state-wide labor union
incorporated in the State of New Hampshire,
headquartered at 207 N. Main Street, Concord, New
Hampshire 03301. The Union represents public
employees and enters into collective bargaining
agreements with public employers throughout New
Hampshire, including the State.4
FACTUAL ALLEGATIONS
12. Plaintiff Patrick Doughty has worked for the
State in the Department of Transportation and has
been in a bargaining unit represented by the Union
since October of 2001. Between October 2012 and June
22, 2018, Plaintiff Doughty was forced by the Union
and the State, as a condition of employment, to pay

There are at least two collective bargaining agreements that
cover Plaintiffs’ employment during this litigation: Collective
Bargaining Agreement between the State of New Hampshire
and the State Employees’ Association of New Hampshire,
Service Employees International Union, Local 1984, 2018-2019,
http://www.seiu1984.org/files/2012/03/2018-2019 -CBA.pdf;
Collective Bargaining Agreement between the State of New
Hampshire and the State Employees’ Association of New
Hampshire, Service Employees International Union, Local
1984, 2015-2017, https://das.nh.gov/hr/cba2015/CBA%2020152017.pdf. SEIU 1984 also entered into CBAs with other public
employers during the period that also contained forced fee
requirements.
4

App-52
fees out of his wages, without his consent, to the
Union.
13. Plaintiff Randy Severance has worked for the
State in the Department of Information Technology
and has been in a bargaining unit represented by the
Union since December of 1990. Between August 2006
and June 22, 2018, Plaintiff Severance was forced by
the Union and the State, as a condition of
employment, to pay fees out of his wages, without his
consent, to the Union.
14. Though Plaintiffs were members of neither the
Union nor its affiliates during the limitations period,
both were compelled, pursuant to the compulsory
union fee provisions of Article 5.7 of their relevant
CBAs, to pay a nonmember fee to SEIU 1984, which
distributed some of the fee to its affiliates as a
condition of their public employment prior to Janus.
15. Defendant acted under color of state law when it
required, collected, and received these compulsory
fees from Plaintiffs and the Class Members pursuant
to the relevant CBAs which required these payments
from Plaintiffs’ and Class Members’ wages.
PLAINTIFFS’ CLASS ALLEGATIONS
16. Plaintiffs bring this class action under Fed. R.
Civ. P. 23(b)(3). The class includes all individuals
employed by the State, and other public employers,
who, as a condition of employment, were forced to pay
union fees to SEIU 1984, which distributed some of
the fees to its affiliates, any time during the
limitations period. The class includes everyone who
paid compulsory union fees for the period(s) during
which compulsory nonmember fees were collected and
remitted to the Union – including former and retired

App-53
employees, those who have moved to other states, and
those who eventually joined the Union. Collectively,
the individuals who satisfy these criteria are referred
to as “Class Members.”
17. The number of persons in the class makes joinder
of the individual class members impractical.
18. There are questions of fact and law common to all
Class Members. Factually, Plaintiffs and all Class
Members are or were public employees who were not
members of the Union and were compelled to pay
agency fees to SEIU 1984, which distributed some of
those fees to its affiliates, as a condition of public
employment. The U.S. Constitution affords the same
rights to Plaintiffs and all Class Members. The
common questions include whether they are entitled
to the return of the compulsory union fees required as
a condition of employment without their consent.
19. Plaintiffs’ claims are typical of other Class
Members, because the Class Members did not
affirmatively consent to financially support the Union
and/or its affiliates yet have been forced by the
applicable CBA provisions to financially support
SEIU 1984 and/or its affiliates in violation of their
rights.
20. Plaintiffs can adequately represent the interests
of all Class Members and have no interests
antagonistic to any Class Member because all have
been forced to pay, as a condition of employment, fees
from their wages without their consent.
21.
A class action can be maintained under Fed. R.
Civ. P. 23(b)(3) because the common questions of law
and fact identified in this Complaint predominate
over any questions affecting only individual Class

App-54
Members. A class action is superior to other
available methods for the fair and efficient
adjudication of the controversy because, among other
things, all Class Members have been subjected to the
same violation of their constitutional rights, but the
amount of money involved in each individual’s claim
would make it burdensome for Class Members to
maintain separate actions. The amount of the forced
fee deductions taken from Plaintiffs and Class
Members and the amount of damages are known to
SEIU 1984.
CAUSE OF ACTION COUNT 1
(Forced fees violate 42 § 1983 and the
First and Fourteenth Amendments)
22. Plaintiffs re-allege and incorporate by reference
the paragraphs set forth above.
23. By and through the terms of the compulsory
union fee provisions of the CBAs between Plaintiffs’
and the Class Members’ public employers and SEIU
1984, the Union has illegally compelled Plaintiffs and
Class Members to financially support the Union,
which distributed some of those fees to its affiliates.
24. As a result of the actions set forth in the
foregoing paragraph, SEIU 1984 has violated
Plaintiffs’ and the Class Members’ First Amendment
rights, as secured by the Fourteenth Amendment to
the United States Constitution and 42 U.S.C. § 1983,
not to associate with or financially support a labor
organization and its affiliates as a condition of
employment, without their affirmative consent and
knowing waiver of their First Amendment rights.

App-55
PRAYER FOR RELIEF
Wherefore, Plaintiffs pray that this Court:
A.

Class action: Enter an order, as soon as
practicable, certifying this case as a class action,
certifying the class as defined in this Complaint,
certifying Plaintiffs as class representatives for
the class, and appointing Plaintiffs’ counsel as
class counsel for the class;

B.

Declaratory Judgment: Enter a declaratory
judgment that all compulsory union fee
provisions of collective bargaining agreements
that compelled Plaintiffs and Class Members to
pay fees to the Union and its affiliates as a
condition of their employment, and the receipt
and use of those forced fees by SEIU 1984, which
distributed some of these fees to its affiliates, are
unconstitutional under the First Amendment, as
secured by the Fourteenth Amendment to the
United States, and are null and void;

C.

Damages: Enter a judgment awarding Plaintiffs
and Class Members compensatory damages,
refunds, or restitution in the amount of
compulsory union fees paid to the Union from
their wages without their written consent, and
other amounts as principles of justice and equity
require;

D.

Interest: Award Plaintiffs and Class Members
pre-judgment and post-judgment interest, as
appropriate, on all amounts due to them as a
result of this action;

E.

Costs and attorneys’ fees: Award Plaintiffs their
costs and reasonable attorneys’ fees pursuant to

App-56
28 U.S.C. § 1920 and 42 U.S.C. § 1988, and as
otherwise permitted by law; and
F.

Other relief: Award Plaintiffs and Class
Members such other and additional relief as this
Court deems just, equitable, or proper.
Respectfully submitted,
PATRICK DOUGHTY and
RANDY SEVERANCE,
As
individuals
and
representatives
of
the
requested class,
By Their Attorneys,

Dated: January 14, 2019
/s/ Bryan K. Gould
_________________________
Bryan K. Gould, Esq. (NH
Bar # 8165)
gouldb@cwbpa.com
Cleveland, Waters and
Bass, P.A.
Two Capital Plaza, P.O.
Box 1137
Concord, NH 03302-1137
Telephone: (603) 224-7761
Facsimile: (603) 224-6457
Milton L. Chappell, DCB#936153
mlc@nrtw.org
Alyssa K. Hazlewood, MDB
(no bar number)
akh@nrtw.org

App-57
Frank D. Garrison, IN #34024-49
fdg@nrtw.org
c/o National Right to Work Legal
Defense Foundation, Inc.
8001 Braddock Rd, Ste. 600
Springfield, VA 22160
Tel: (703) 770-3329
Attorneys for Plaintiffs and the
Requested Class (Pro Hac Vice
to be filed)

